Dear ELGA Member,
We are pleased to welcome you as a new
ELGA VISA Credit Card holder. You will receive
your card(s) within 7 to 10 days.
You will enjoy many benefits with your ELGA VISA such as:
Easy Payment Options
Visit www.ELGACU.com/payments to learn more about
all of the convenient ways you can make payments.
Safety and Security
Your card has zero liability against unauthorized purchases.
No Annual Fee
There are no membership or annual fees.
Free Balance Transfers
Contact us at (810) 715-3542 to pay off other higher rate
credit cards and consolidate your payments into one card.

Please call

(866) 537-3199 to:
- Activate a card
- Report a card lost or stolen
- Change your PIN
- Get balance & payment
information

www.ELGACU.com

•

(810) 715-3542

•

(800) 882-6457

